Office of Inspector General
    Audit Report


    FAA CONTINUES TO FACE
CHALLENGES IN IMPLEMENTING A
  RISK-BASED APPROACH FOR
  REPAIR STATION OVERSIGHT
   Federal Aviation Administration

    Report Number: AV-2013-073
      Date Issued: May 1, 2013
           U.S. Department of
                                                                     Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA Continues To Face Challenges in                                           Date:    May 1, 2013
           Implementing a Risk-Based Approach for Repair
           Station Oversight
           Report No. AV-2013-073

  From:    Jeffrey B. Guzzetti                                                               Reply to
                                                                                             Attn. of:    JA-10
           Assistant Inspector General
             for Aviation

    To:    Federal Aviation Administrator


           Over the past 15 years, major U.S. air carriers increased spending for contract
           maintenance by nearly $2.7 billion. 1 Industry experts expect this trend to continue
           as airlines increasingly attempt to cut maintenance costs and maximize
           profitability. Currently, the Federal Aviation Administration (FAA) is responsible
           for overseeing nearly 4,800 aircraft repair stations 2 used worldwide by U.S air
           carriers.

           In July 2003 and September 2008, 3 we reported that FAA’s oversight did not
           ensure that work completed at repair stations met FAA standards, and we made
           recommendations aimed at improving this oversight. In response to our 2003
           report, FAA implemented a new process intended to provide comprehensive,
           standardized, and risk-based oversight of repair stations.

           At the request of the former Chairman of the House Committee on Transportation
           and Infrastructure, Subcommittee on Aviation, we evaluated the Agency’s
           progress since our last review. Specifically, we (1) determined whether FAA’s
           oversight includes accurate and timely risk assessments of repair stations, and
           (2) evaluated the effectiveness of FAA’s oversight of foreign and domestic repair
           stations.

           1
             In 1996, air carriers spent over $1.5 billion for contract maintenance services. In 2011, that amount rose to $4.2 billon.
           2
             Repair stations conduct a range of repairs and maintenance, from critical components—such as landing gear and
           engine overhauls—to heavy airframe checks, which involve a complete teardown and overhaul of the aircraft.
           3
             OIG Report No. AV-2003-047, “Review of Air Carriers’ Use of Aircraft Repair Stations,” July 8, 2003, and OIG
           Report No. AV-2008-090, “Air Carriers’ Outsourcing of Aircraft Maintenance,” September 30, 2008. OIG reports are
           available on our Web site at http://www.oig.dot.gov/.
                                                                                                                        2


To conduct our work, we visited or contacted FAA inspection offices and repair
stations located in the United States, Brazil, China, New Zealand, Peru, and
Singapore. We randomly selected 27 repair stations 4 for review from a FAA-
provided list of facilities performing work for U.S. Part 121 airlines. 5 In addition,
as part of this audit, we selected a statistical sample of 119 aircraft work orders for
which we analyzed, among other things, the adequacy of maintenance
documentation and reviewed training records. This review allowed us to project
the total number of systemic deficiencies.

We conducted this review in accordance with Government auditing standards
prescribed by the Comptroller General of the United States. Exhibit A provides
more details on our scope and methodology. Exhibit B includes a list of FAA
offices and repair stations we visited or contacted.

RESULTS IN BRIEF
FAA developed a risk assessment process to aid repair station inspectors in
identifying areas of greatest concern. Despite FAA’s efforts, its oversight
emphasizes completing mandatory inspections instead of targeting resources to
where they are needed based on risk. Of the 16 established repair station
inspection areas, FAA guidance only requires 7 to be assessed for risk; the other
9 are inspected annually regardless of risk. Additionally, FAA inspectors do not
use this system at foreign repair stations. Instead, they review all inspection
elements annually at these facilities. Further, FAA’s risk assessment tool was
designed to only include the prior year’s inspection data. As a result, inspectors
cannot conduct trend analysis due to insufficient historical data. In addition, FAA
has not provided inspectors with national-level data analyses that would enhance
their ability to assess repair station performance, though these data were promised
when the system was implemented 5 years ago. Finally, FAA provided ineffective
training to inspectors on how to use the oversight system tools, further hindering
inspectors’ ability to conduct adequate repair station risk assessments. Due to
weaknesses in FAA’s oversight system, inspectors are not effectively targeting
surveillance to repair stations with the greatest risk.

FAA’s oversight of foreign and domestic repair stations lacks the rigor needed to
identify deficiencies and verify that they have been addressed. This is because
FAA inspectors typically do not use comprehensive and standardized procedures
for conducting inspections and reporting inspection findings, resulting in
inadequate and inconsistent inspection practices. For example, foreign repair

4
  Our sample of repair stations was derived from a list provided by FAA. Our universe of 559 repair stations included
all facilities not covered under Bilateral Aviation Safety Agreements-Maintenance Implementation Procedures, and
those that had at least one 14 CFR Part 121 customer.
5
  This refers to large, commercial operators regulated under 14 CFR Part 121, Operating Requirements: Domestic,
Flag, and Supplemental Operations. These carriers operate larger aircraft with primarily scheduled flights.
                                                                                                                      3


station officials could not develop a suitable corrective action plan because FAA
inspectors did not clearly communicate the results of their findings (e.g., cited
regulations without connecting them to the deficiency the inspector identified).
Additionally, inspectors overlooked repair station discrepancies and did not ensure
that corrective actions addressed previously identified problems. For example, an
FAA inspector determined that a repair station failed to maintain a current list of
required mechanic training 3 years in a row, yet the inspector accepted the repair
station’s corrective actions each time. Our review identified numerous other
deficiencies—57 of 119 work orders 6 we reviewed contained errors—such as
inadequate maintenance procedure training, use of tools with expired calibration
due dates, and inaccurate work order documentation. Uncorrected maintenance
deficiencies such as these could lead to the use of improperly repaired aircraft
parts on U.S. air carriers. As a result of FAA’s insufficient oversight, some repair
stations may not be operating in full compliance with Federal aviation regulations.

We are making recommendations to improve FAA’s risk-based oversight of
foreign and domestic repair stations.

BACKGROUND
In 2003, we reported that despite the increase in air carriers’ use of external repair
facilities, FAA concentrated its oversight of airline maintenance on work
performed at the air carrier’s in-house facilities. In 2008, we reported that while
FAA moved its safety oversight toward a risk-based system, it still relied too
heavily on air carriers’ oversight procedures, which are not always sufficient. We
made several recommendations to FAA aimed at improving its oversight of repair
stations. In response, FAA developed and implemented a risk-based oversight
system designed to target its inspector resources to areas with the greatest risk.

FAA inspectors conduct annual safety inspections of all FAA-certificated repair
stations located within the United States. For those repair stations located outside
of the United States, the responsibility for oversight varies. FAA inspectors
assigned to international field offices oversee 564 of the 726 FAA-certificated
foreign repair stations (see exhibit C). The responsibility for the remaining repair
stations falls under reciprocal Bilateral Aviation Safety Agreements-Maintenance
Implementation Procedures (BASA-MIP) 7 that permit national aviation authorities
located in France, Germany, and Ireland to inspect repair stations on FAA’s
behalf.


6
  We reviewed a statistical sample of 119 work orders out of 49,859 from 27 repair stations in our review.
7
  A Bilateral Aviation Safety Agreement is a government-to-government agreement that lays out a framework for the
aviation authorities to cooperate on aviation safety issues. Maintenance Implementation Procedures define the terms
and conditions under which the authorities accept each other’s maintenance facility inspections, thereby reducing
redundant regulatory oversight. Repair stations under BASA-MIP procedures were not included in our review.
                                                                                 4


Prior to FAA implementing its risk-based oversight system in 2007, each repair
station principal inspector performed one required inspection item per repair
station annually. Each inspector determined which areas to review during these
inspections, but often did not document areas they inspected. Today, inspectors
must still perform at least one annual inspection to evaluate the facility and
determine whether its employees are qualified to perform maintenance functions.
These inspections now include 16 sub-inspection items, or elements, such as
quality control, training, manuals, and tools and equipment.

FAA OVERSIGHT DOES NOT PROVIDE FOR ACCURATE OR
TIMELY RISK ASSESSMENTS OF REPAIR STATIONS
FAA does not have an effective system for accurate and timely risk assessment of
foreign and domestic repair stations because of critical weaknesses in its repair
station oversight process. First, less than half of its inspection elements are
evaluated based on risk, and foreign repair stations are not inspected using this
system. In addition, tools designed to assist inspectors in assessing risk are not
effective, and inspectors are not using them. Finally, a lack of effective training
and availability of consolidated repair station data for inspectors is leading to
inconsistencies in oversight and hindering FAA’s ability to prioritize surveillance
based on risk.

FAA Inspectors Use a Limited Risk-Based Approach to Repair Station
Oversight
FAA’s guidance recommends inspectors conduct annual inspections at repair
stations covering as many as 16 inspection elements, but not all are evaluated
based on risk. FAA requires that as many as nine elements be inspected annually,
regardless of risk. However, FAA’s guidance does not explain why these specific
elements must be inspected each year. As shown in table 1 below, less than half—
7 of 16—of the inspection elements are actually inspected based on risk.
                                                                                            5


Table 1. Inspection Elements and Frequency of Inspection
      Required Annually                                        Based on Risk**

       Maintenance Process                                     Certificate Requirements
       Quality Control                                         Housing and Facilities
       Technical Data                                          Manuals
       Training                                                Parts and Materials
       Air Carrier Requirements*                               Personnel Records
       Contract Maintenance                                    Records Systems
       (certificated repair facility)*
       Contract Maintenance                                    Tools and Equipment
       (non certificated repair facility)*
       Domestic EASA Oversight Audit*
       Work Away from Station*
* Only inspected if element applies to the repair station
** If no risk is detected, these elements are required to be inspected once every 3 years
Source: FAA

Moreover, inspectors have not conducted inspections of the risk-based elements at
repair stations within appropriate time intervals. FAA requires inspectors to
complete these inspections at least once every 3 years so they can determine
whether repair station operations have changed (e.g., the repair station began
contracting out maintenance to another facility). However, FAA’s inspection
database for fiscal years 2009 to 2012 showed that FAA inspectors did not
complete timely inspections at 20 of the 27 repair stations in our sample, leaving
inspectors unaware of any changes in operations that could impact risk levels. We
also found that inspectors continued to perform inspections in areas of repair
station operations where little or no risk was previously detected. For example,
during fiscal years 2009 to 2012, FAA completed inspections at 24 of 27 repair
stations where little or no risk was previously identified.

FAA also does not use its risk-based oversight system to inspect foreign repair
stations. Instead, inspectors review all inspection elements annually, regardless of
risk. For example, from fiscal years 2009 to 2012, inspectors responsible for
oversight of 8 of the 13 foreign repair stations in our sample inspected every
element in a particular year regardless of risk. According to FAA guidance,
inspectors should use a risk-based oversight approach for all repair stations, both
domestic and foreign. 8 Yet, over half of the foreign repair station inspectors we
interviewed on this issue—7 of 12— said they did not use, or did not see the need

8
    Except those repair stations under a BASA-MIP agreement.
                                                                                 6


for using, a risk-based oversight approach. Because foreign repair stations must be
re-certified each year, inspectors feel they must inspect all elements during the
recertification process.

FAA Developed Risk-Based Inspection Tools, but the Tools Are
Ineffective and Inspectors Do Not Use Them
Since implementing risk-based oversight, FAA has developed two tools for
inspectors—the Repair Station Assessment Tool (RSAT) and the Risk
Management Process (RMP). However, limitations in tool versatility, data
availability, and data quality have precluded inspectors from using these tools,
which in turn has hindered FAA’s ability to conduct effective risk-based oversight.

Repair Station Assessment Tool (RSAT)
The RSAT, while developed to assist inspectors with planning surveillance and
analyzing risk, has limited effectiveness. The tool is comprised of a Web-based
spreadsheet that displays 16 inspection elements, which together represent an
annual repair station inspection (see exhibit D). The spreadsheet is populated with
inspection results captured as risk assessment scores from the previous year, which
inspectors use to analyze risk and prioritize their surveillance for the upcoming
year. Shortcomings with the design and data have created a number of problems
for inspectors using the RSAT. For example:

   • Lack of versatility. Due to its design, inspectors can only complete the
     RSAT once annually as part of their national work program at the
     beginning of each fiscal year, and cannot update changes in risk until the
     following year. As a result, the RSAT tool is not useful to inspectors for
     monitoring changes in risk levels occurring throughout the year. Instead,
     inspectors must consult another inspection database to track changes in risk
     and adjust their oversight priorities.

   • Limited data availability. The RSAT was designed to include risk
     assessment data only from the previous year, making it impossible for
     inspectors to conduct any meaningful trend analyses and prioritize their
     resources accordingly. Instead, inspectors must perform searches of various
     FAA databases (e.g., databases for surveillance and enforcement activities)
     to identify any recurring deficiencies at repair stations.

   • Questionable data quality. The RSATs we reviewed contained errors and
     incomplete information, further limiting their effectiveness for trending
     deficiencies. As shown in exhibit D, an RSAT should contain data such as
     the number of planned/completed inspections, risk assessment scores for
     each inspection element, and an overall risk assessment score. However,
     112 of 146 RSAT worksheets we reviewed for fiscal years 2010 to 2012
                                                                                                      7


             contained discrepancies. For example, 66 RSATs contained a different
             overall assessment score than had been originally recorded in FAA’s
             inspection database. An FAA official attributed these discrepancies, in part,
             to problems with transferring data from FAA’s inspection database to the
             RSATs. Figure 1 below shows the type of discrepancies we identified in
             fiscal years 2010 to 2012.

Figure 1. RSAT Worksheet Data Discrepancies, FYs 2010–2012


                        160
                        140
    No. of Worksheets




                        120
                        100
                         80          66
                         60
                                                       40              28
                         40
                                                                                         20
                         20
                          0
                              Incorrect Overall      Incorrect    Incorrect No. of Blank Worksheets
                                Assessment          Inspection      Completed          (No Data)
                              Score Displayed     Element Score     Inspections
                                                    Displayed        Displayed

   Source: OIG analysis of FAA data

  • Subjective risk criteria. Inspectors must manually assign risk assessment
    scores that can be subject to misinterpretation. For example, to assign a risk
    score, inspectors determine the level of risk at a repair station by selecting a
    generic word description and an associated numerical value—from 1 to
    10—as shown in figure 2 below. The numerical value represents the
    definition that most closely corresponds to the conditions observed during
    each inspection.
                                                                                                                    8


Figure 2. RSAT Word Description and Risk Assessment Scores

         10: Requirements are met and are considered to be well
                above the minimum industry standards.

           8-9: Requirements are met and are adequate, appropriate,
           maintained, documented, and controlled. No deficiencies
                                 observed.

               6-7: Requirements are met and are adequate, appropriate and
               maintained. An adequate control system is in place but some
                       discrepancies are noted and being corrected.

                          3-5: Requirements are marginally met. Documentation
                                       and controls are deficient.

                                            1-2: Requirements are not met.


                                                                                                     Source: FAA


    • Susceptibility to inconsistent assessments. Inspectors must understand the
      tool’s terminology and effectively assign word descriptions to ensure the
      accuracy of inspection results and to conduct comprehensive trend
      analyses. More than half of the 31 inspectors we interviewed on this issue
      stated they did not understand the word descriptions or did not find them to
      be accurate indicators of problems identified during inspections. This
      confusion leads to inconsistencies in the way inspectors view the severity
      of risk and document their repair station risk assessments. For example, two
      risk assessments by different inspectors 9 of the same repair station in fiscal
      year 2011 resulted in an overall assessment of 1 (“Requirements are not
      met”) by one inspector and a 7 (“Requirements are met and are adequate”)
      by the other. Because of the subjective nature of FAA’s risk assessment
      process, inspectors may not be consistently or effectively identifying risks
      at repair stations.

Risk Management Process (RMP)
FAA also provided inspectors with another tool—the RMP—to assist in analyzing
and mitigating risk; however, we found that inspectors are not using it. The RMP
is a decision tool—similar to a flow process diagram—that inspectors should use
to determine the severity and likelihood of recurring deficiencies at repair stations.
However, 24 of 34 inspectors we interviewed on this issue stated they do not use
the tool primarily because they could not recall the training or did not receive it.

9
 Typically, FAA assigns two inspectors to oversee repair stations—one to review maintenance and another to review
avionics processes. Each inspector completes a separate risk assessment.
                                                                                                                     9


According to an FAA Aviation Data Systems Branch official, if an inspector used
this decision tool, it would be coded on the RSAT inspection worksheet. Yet, our
review of 146 RSAT worksheets from fiscal years 2010 to 2012 disclosed that
none of the inspectors used the RMP to analyze or mitigate risk.

FAA guidance recommends inspectors use the tool to address any hazard that they
decide is significant enough to justify intensive analysis and tracking. However,
none of the inspectors included in our review were using the tool. For example, in
2011, an inspector identified deficiencies with a component repair station’s
training program and improper handling of materials. The inspector rated the
repair station with the lowest risk assessment score, indicating it did not comply
with Federal aviation regulations. Part of the RMP process requires the inspector
to identify the potential consequences 10 that could result if the hazard is not
addressed. Through this analysis, inspectors create action items to ensure the
repair station has addressed the risk factors. Although FAA guidance suggests that
inspectors use the RMP tool in instances where significant or systemic hazards
occurred, the inspector did not use it to mitigate the risks he identified with the
repair station’s training and material handling programs.

Ineffective Inspector Training and a Lack of Adequate Data Have
Hindered Risk-Based Oversight Efforts
FAA inspectors we interviewed stated they did not know how to use the risk
assessment tools effectively because they were not formally trained. According to
FAA headquarters officials, inspectors were trained 11 on how to use the system’s
two new risk-based tools during a course conducted at FAA’s training academy.
However, nearly all—33 of 36 inspectors we spoke with on this issue—stated
either they were not trained, did not recall the training, or regarded it as poor. The
inspectors stated that they only reviewed a PowerPoint presentation provided by
FAA or resorted to other means of learning how to conduct and document their
risk assessments, such as asking other inspectors for assistance.

Further, FAA has not provided data analysis enhancements to inspectors that
would improve their ability to assess repair station risk. When FAA implemented
its new oversight system in 2007, it stated it would provide inspectors with a
Repair Station Data Package, 12 which would assist them in collecting and
analyzing data used to improve their risk assessments. However, inspectors have
been using the new risk-based oversight approach for 5 years and FAA has not yet
developed the data package. Currently, inspectors do not have a single point of

10
   FAA defines a potential consequence as an equipment failure, process breakdown, human error, injury/death to
persons, damage to equipment, noncompliance with regulations or nonconformance with procedures.
11
   FAA Training Course No. 21058, Certification and Surveillance of Part 145 Repair Stations.
12
   According to FAA guidance, the Repair Station Data Package is intended to be a collection of comprehensive data
analyses (e.g., surveillance and enforcement activities) available to inspectors to more easily assist them with
identifying risks associated with repair station performance.
                                                                                                                10


reference for details, history, and trends on the repair stations they oversee, so they
must rely on their own methods to collect and analyze data. 13 While FAA
headquarters officials state the Repair Station Data Package is available, 15 of 25
inspectors we interviewed on this issue either were not familiar with it, felt the
guidance was not clear, or they did not know how to access the information.

FAA DOES NOT HAVE AN EFFECTIVE OVERSIGHT PROCESS
FOR FOREIGN AND DOMESTIC REPAIR STATIONS
In addition to lacking a fully risk-based oversight approach, FAA’s ability to
conduct effective and consistent inspections of foreign and domestic repair
stations is hindered by a lack of standardized inspection processes. As a result, we
found numerous systemic deficiencies at the foreign and domestic repair stations
we visited during our review.

Lack of Standardized Processes Has Resulted in Inconsistencies in
FAA’s Surveillance of Repair Stations and Confusion Among Repair
Station Officials
We identified weaknesses in FAA’s processes for conducting consistent
inspections, performing sufficient reviews of repair station corrective actions, and
effectively conveying deficiencies to repair station officials. For example,
inspectors do not use formalized checklists, do not fully document areas they
reviewed in FAA’s inspection database, and do not clearly communicate post-
inspection results so repair station officials can develop comprehensive corrective
action plans.

Lack of Checklist and Insufficient Documentation of Areas Inspected
Inspectors do not use standardized checklists to guide their surveillance activities,
which results in inspectors using differing inspection methodologies and
inconsistently reporting their findings. While FAA guidance suggests areas that
repair station inspectors should review, the guidance does not specifically require
them to use an inspection checklist. Instead, inspectors rely on their own
knowledge of repair stations, or they develop their own checklists to conduct
reviews. Over half of the inspectors we interviewed on this issue—19 of 33 —did
not use a checklist to perform inspections. In addition, inspectors do not clearly
identify and document which areas were reviewed in the inspection database. As a
result, it is difficult to determine whether inspectors focused their resources on
areas in which previous discrepancies were identified.



13
  Conversely, FAA has provided a data package to its 14 CFR part 121 inspectors to assist them with more consistent
and accurate analysis of air carrier operations.
                                                                                   11


Insufficient Verification of Corrective Actions
Inspectors do not verify whether repair stations have implemented effective
corrective actions to address inspection findings. The ability to track the adequacy
of corrective actions is important to ensure that repair stations operate in
accordance with FAA standards. Once a repair station submits a corrective action
plan to FAA, inspectors are responsible for reviewing actions taken and either
accepting or rejecting the plans based on the sufficiency of the proposed actions.
For example, FAA inspectors for an airframe repair station accepted a corrective
action plan with projected completion dates even though repair station officials
stated in their response that they needed further clarification from FAA for four of
the findings. In addition, a training deficiency (i.e., the repair station failed to
maintain a current list of required mechanic training) persisted at one repair station
for 3 years, indicating the repair station’s corrective actions were not effective
each year. Without verification that repair stations have implemented effective
corrective actions, inspectors cannot be assured that previous deficiencies will not
reoccur.

Inadequate Communication of Inspection Results
FAA inspectors do not have a standardized means of conveying identified
discrepancies to repair station officials, which leads to confusion and difficulty in
implementing practical corrective actions. Some inspectors provided written notes
at the end of the inspection and some merely provided a verbal debrief. Repair
station officials at 6 of the 13 foreign repair stations we visited stated that FAA
inspectors did not clearly communicate their inspection findings. In some
instances, FAA’s written repair station reports contained vague descriptions of
inspection findings. For example, an inspector provided the following inspection
finding to the repair station:

       “A repair station may perform maintenance, preventative
       maintenance or alterations to an air carrier in accordance with their
       FAR 121 maintenance programme. Personnel need to be trained on
       the requirements outlined in the FAR 121 air carriers (sic) manual.”

In other instances, inspectors included more findings in the written report than was
verbally conveyed at the conclusion of the inspection. As a result, repair station
officials are often confused and frustrated as to what actions are needed to address
FAA inspectors’ concerns. According to repair station personnel, if FAA
inspectors had provided a written report at the post-inspection briefing, they could
have reached a consensus on the nature of the findings and proposed corrective
actions. Officials from one foreign repair station were so frustrated by poor
communication with its inspectors that they decided it was easier and more
efficient to fly to the United States to meet with FAA for clarification and
guidance.
                                                                                                                    12


Other examples of inconsistent FAA inspector actions that resulted in repair
station confusion include:

     • An FAA inspector required a foreign repair station to include a provision in
       its operating capabilities that authorized it to perform work offsite. While
       repair station personnel repeatedly insisted that they only conduct
       maintenance at their main base, they ultimately relented and complied with
       the inspector’s request. However, when a new inspector was assigned to the
       repair station, he directed them to remove the authorization because it was
       not needed.

     • During an FAA inspection of an airframe repair station, an inspector
       determined that the repair station had not changed its manual based on the
       handwritten notes the inspector provided during his previous visit. When
       the inspector questioned why the repair station official had not made the
       suggested changes to the manual, he seemed confused. According to the
       repair station official, he assumed that since the suggested changes were
       presented on handwritten notes and not presented in a written report of
       findings, they were not urgent.

Systemic Deficiencies Persist at Repair Stations
Our review of work order packages at foreign and domestic repair stations
disclosed systemic deficiencies, including insufficient mechanic training, outdated
tool calibration, and inaccurate work order documentation. These deficiencies are
particularly troubling because they occurred in areas that FAA requires inspectors
to review annually, including training, maintenance processes, technical data, and
quality control. Overall, our review of 119 randomly selected aircraft work orders
in these four areas, coupled with our examination of tools and equipment at each
facility, disclosed 92 systemic deficiencies. Based on the results of our statistical
sample of 27 repair stations, we estimate that 217,641 (37 percent) of the
estimated 589,573 work orders from September 2008 to August 2011 from
domestic and foreign repair stations (where FAA performs its own inspections)
had deficiencies in these five areas. 14 As shown in figure 3 below, training for
repair station personnel was the number one category for errors at the repair
stations we reviewed.




14
   Our estimate of 217,641 has a precision of +/-28,919, and our estimate of 589,573 has a precision of +/-254,066 at
the 90-percent confidence level.
                                                                                              13


Figure 3. Number of Work Order Deficiencies by Category

       No. of Repair Stations with                     No. of Times the Deficiency
        Deficiencies by Category                              was Identified
                                     Training                               Training

               4                                                 5
           5                         Tools & Equip          9               Tools & Equip

                       21            Maintenance                     45     Maintenance
                                                       16
      10                             Process                                Process
                                     Technical Data                         Technical Data
                                                            17
               13
                                     Quality Control                        Quality Control



Source: OIG analysis of repair station work orders

Training Documentation Issues
Of the 27 repair stations we reviewed, 21 did not maintain accurate training
records for mechanics and inspection personnel which are required to demonstrate
that they were properly trained and qualified to perform repairs or inspect aviation
parts. Repair stations are required to submit their training programs to FAA for
approval. The program must ensure that individuals performing maintenance are
capable of performing assigned tasks by completing initial and recurrent training.
In addition, if a repair station performs work for a commercial air carrier, the
employees must also be trained in accordance with the air carriers’ requirements.
FAA inspectors are required to review training documentation at repair stations
annually to determine whether all required training has been completed and
appropriately documented at each station. Despite these requirements, repair
station officials did not have documentation to show that employees had been
trained to perform the assigned tasks required in 45 of 119 work orders in our
sample. Examples of the training documentation issues include:

    • Employees at an engine repair station did not receive the required
      maintenance manual course prescribed by the air carrier.

    • Employees that serviced aircraft life vests and rafts did not use the proper
      forms to document training received for hydrostatic testing or charging
      inflation systems.

    • Employees at an aircraft paint facility did not receive the required training
      to perform work for two U.S. air carriers.
                                                                                                                   14


Based on the results of our statistical sample, we can project that 175,552—or
30 percent—of the estimated 589,573 work orders from September 2008 to
August 2011 from domestic and foreign repair stations (where FAA performs its
own inspections) have discrepancies related to training documentation. 15

Tools and Equipment Issues
Nearly half of the repair stations (13 of the 27) we visited had weaknesses in their
tool and equipment programs. FAA guidance requires inspectors to review repair
station manuals describing the tool and equipment calibration process and verify
that repair stations are calibrating tools within the required intervals, usually once
a year. However, our review revealed that specialized tools and equipment were
used to test and repair aircraft parts beyond their required calibration due dates.
For example, mechanics at a turbine engine repair station conducted post-
maintenance checks on three engines using equipment believed to be properly
calibrated. However, we examined calibration due dates for test cell equipment
used to validate the engine repairs and determined that at the time of the engine
checks, the equipment was overdue for annual calibration. Following
manufacturers’ specified intervals for calibrating tools and equipment is
paramount to ensuring that aircraft operate safely and aviation parts are properly
maintained.

Other examples of repair stations that lacked adequate control over their tool and
equipment programs include:

     • A repair station that services safety equipment, such as life rafts, could not
       locate some of its tools and had tools that either exceeded required
       calibration intervals or did not have calibration stickers.

     • Officials at an airframe repair station continued to track a wire crimping
       tool that had been missing for 2 years and was overdue for calibration, but
       they never accounted for its whereabouts.

     • Employees at a landing gear repair station were not following procedures
       for identifying tools that were owned by individual mechanics, especially
       those that require calibration. Repair station procedures required that
       personal tools be inscribed with a serial number and employee initials;
       however, we found employees using unidentified personal tools.

According to inspection records, FAA inspectors did not find any tool calibration
discrepancies at an engine repair facility in the 3 years prior to our visit, yet we
found four tools past due for calibration. This was also the case at the repair

15
  Our estimate of 175,552 has a precision of +/-26,365, and our estimate of 589,573 has a precision of +/-254,066 at
the 90-percent confidence level.
                                                                                                                    15


station where we found overdue calibration due dates on engine test cell
equipment. Ultimately, overdue calibration on specialized tools and equipment
and use of unapproved personal tools could result in the use of aircraft parts that
do not meet manufacturers’ specifications.

Maintenance Process Issues
We found deficiencies in maintenance practices at 10 of 27 repair stations we
visited. FAA inspection guidance states that inspectors should identify a repair
station process to be inspected, identify the documents associated with that process
(i.e., task cards, work orders, maintenance manuals), and follow the documents
through the process to determine whether personnel are following repair station
procedures. Our review disclosed deficiencies where employees did not complete
work orders to document technical data they used during repairs, used incorrect
employee stamps to document completion of work steps, or signed off on work
steps that they were not authorized to complete. In particular, two inspectors at a
repair station signed off on critical inspection tasks 16 without the proper
authorization from the air carrier. This work involved repairs to the nose wheel
steering cables on a Boeing 717 aircraft. The errors in the work orders indicate the
repairs were not performed in accordance with the air carrier maintenance
procedures, raising questions about the quality of the work performed at these
facilities.

Based on the results of our statistical sample, we project that 43,769—or
7 percent—of the estimated 589,573 work orders from September 2008 to August
2011 from domestic and foreign repair stations (where FAA performs its own
inspections) have discrepancies related to maintenance processes. 17

CONCLUSION
Effective and consistent oversight of aircraft repairs is a key element to
maintaining the safety of commercial air carrier operations. With growth in
aircraft repair station use projected to reach $76 billion by 2021, these facilities
continue to be an integral part of air carrier maintenance. While FAA has made
strides in improving its inspections of repair stations by implementing a new
oversight system, this system falls short of being truly risk based, especially for
foreign repair stations. FAA must take further steps to improve the effectiveness
of its risk-based tools and inspector training so that they can target oversight
towards those repair stations most at risk and better detect systemic deficiencies.
Until the Agency modifies its inspection system, FAA’s ineffective oversight

16
   Also known as Required Inspection Items, or RII. RII work steps require a repair station inspector to verify the
accuracy of the mechanic’s repair.
17
   Our estimate of 43,769 has a precision of +/-10,963, and our estimate of 589,573 has a precision of +/-254,066 at the
90-percent confidence level.
                                                                                 16


could lead to repair stations operating contrary to Federal aviation regulations and
decreasing the margin of safety.

RECOMMENDATIONS
To enhance its oversight of repair stations, we recommend that FAA:

   1. Modify its oversight system so that all inspection elements are considered
      in inspector risk assessments of repair stations.

   2. Implement a risk-based system appropriate for oversight of foreign repair
      stations.

   3. Modify the risk assessment tool so that inspectors can document changes to
      their surveillance plans as soon as they are made.

   4. Develop a control that will ensure inspectors prioritize inspections to those
      repair stations determined to have increased risk.

   5. Enhance training for inspectors so they understand the importance of using
      the available tools for assessing and trending risk.

   6. Develop the Repair Station Data Package and provide training to all
      inspectors on how to use it.

   7. Develop a standardized checklist that all inspectors can use to improve the
      consistency in the way they perform and report their inspection findings.

   8. Provide training for inspectors to improve their review and acceptance of
      repair station corrective plans.

   9. Provide training to inspectors on how to conduct comprehensive post-
      inspection briefings and require them to issue a draft report of tentative
      findings to repair station officials at the conclusion of inspections.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided a draft of this report to FAA on January 25, 2013, and received its
response on April 4, 2013, which is included in its entirety as an appendix to this
report. FAA concurred with all nine of our recommendations, and its response
meets the intent of six of them. In its response, FAA cited the development of a
new oversight system—the Safety Assurance System (SAS)—to address our
recommendations. However, because FAA plans to only begin implementing SAS
sometime in fiscal year 2015—a 2-year delay from its originally planned rollout in
                                                                                   17


fiscal year 2013—the Agency has developed strategies and established near-term
milestones to improve its current oversight system in the interim. Until SAS is
fully implemented, we believe that FAA’s planned interim actions meet the intent
of recommendations 2, 5, 6, 7, 8, and 9 and include reasonable timeframes.
However, for recommendations 1, 3, and 4, FAA’s interim actions do not address
our concerns, and we are requesting that FAA reconsider its responses, as detailed
below.

Specifically, for recommendation 1, FAA stated that it will conduct recurrent
training to improve the use of the RSAT as it was originally intended until SAS is
implemented. However, FAA’s response does not address our overarching
concern that inspectors continue to complete mandatory inspections instead of
targeting resources where they are needed based on risk. As our report indicates,
some inspectors do not use the risk assessment process at all, and those that do are
hindered in their ability to assess risk, due in part to the RSAT’s limitations with
data availability and quality. While additional training will be helpful, it will not
address the fact that FAA guidance requires only seven inspection elements to be
assessed for risk while the other nine are inspected annually, regardless of risk. To
ensure that the Agency effectively targets its inspection resources by risk, we are
asking FAA to reconsider its position and implement an interim action that is
responsive to our recommendation.

For recommendation 3, FAA also cited its plans to provide recurrent training to
refamiliarize inspectors and their managers with the RSAT’s capabilities so that
they may document changes to their surveillance plans as soon as they are made.
However, while we recognize that inspectors can adjust their surveillance plans at
any time (i.e., by increasing or decreasing the number of inspections as a result of
changes in risk), they cannot input these changes in the RSAT after it has been
prepared at the beginning of each annual inspection cycle. Providing inspectors
with additional training will not address the fact that the RSAT, in its current form,
does not allow inspectors to track changes in risk in real time at repair stations.
Therefore, we are asking FAA to reconsider its position and provide interim
actions that are responsive to our recommendation.

For recommendation 4, FAA indicated that it expects inspectors to prioritize
inspections to those repair stations determined to have increased risk, and it plans
to conduct recurrent training to emphasize this requirement. While we agree that
training can help reinforce requirements, we are concerned that FAA still lacks a
method for verifying whether inspectors actually meet the requirements. Given our
findings that many inspectors do not effectively prioritize their inspections based
on risk, we believe an additional control is necessary to ensure compliance with
this important requirement. Therefore, we are asking the Agency to reconsider its
response and develop a formalized control or another appropriate interim solution.
                                                                                18


ACTIONS REQUIRED
We consider recommendations 2 and 5 through 9 resolved, but open pending the
completion of planned actions. For recommendations 1, 3, and 4, we request that
FAA either provide additional information or reconsider its position as described
above. In accordance with Department of Transportation Order 8000.1C, we
request that FAA provide this additional information within 30 days of this report.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call me at
(202) 366-0500 or Tina Nysted, Program Director, at (404) 562-3770.

                                        #

cc: DOT Audit Liaison, M-1
    FAA Audit Liaison, AAE-100
                                                                                19


EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this review between January 2011 and January 2013 in accordance
with generally accepted Government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

Our audit work was conducted at all of the 10 FAA Flight Standards District
Offices, four International Field Offices/Units, and one Certificate Management
Office that had oversight responsibility for the repair stations in our review. We
used a 2-stage statistical sampling methodology to select these 27 aircraft repair
stations. For Stage 1 we stratified our universe of 68 repair stations that perform
work for U.S. Part 121 airlines, and are not covered under BASA-MIP inspection
procedures into two strata. From Stratum 1 we selected 5 states out of 45, and
from Stratum 2, we selected 5 foreign countries out of 23 for a total of 10
locations. These 10 locations had 250 repair stations which made up our Stage 2
universe from which we selected 14 domestic aircraft repair stations out of 223
and 13 foreign aircraft repair stations out of 27. Samples for both stages were
selected with probability proportional to the number of air carrier customers with
replacement. Our sample of repair stations was derived from a list provided by
FAA. We included in our universe all 559 repair stations that had at least one
customer.

To evaluate the effectiveness of FAA’s oversight of repair station maintenance, we
interviewed 37 of 44 FAA inspectors responsible for oversight of repair stations in
our review to gain an understanding of how they perform risk assessments and
carry out their maintenance inspections. We used a questionnaire we developed
with 22 questions. However, not all questions were asked of all inspectors.
Therefore, the number of inspectors who were asked and responded to certain
questions during our interviews may vary. We interviewed repair station officials
to gain their perspective on FAA’s oversight. We also analyzed inspection data
(fiscal years 2009–2012) from FAA’s database and RSAT worksheets (fiscal years
2010–2012) for all repair stations in our review.

To conduct our reviews at the 27 repair stations, we randomly selected 119 aircraft
work order packages out of 49,859 from September 2008 to August 2011 to
perform tests to determine whether mechanics received training to perform repairs,
complied with prescribed maintenance and quality control processes, used
appropriate technical data, and adhered to tool and equipment calibration
standards. We also observed and noted general shop conditions and ongoing repair
procedures during our tour of each repair station.



Exhibit A. Scope and Methodology
                                                                    20


EXHIBIT B. ACTIVITIES VISITED OR CONTACTED

FEDERAL AVIATION ADMINISTRATION

Headquarters:
   Aviation Safety (AVS)                         Washington, DC
   Flight Standards Service (AFS)                Washington, DC

Flight Standards District Offices (FSDO):
   Atlanta FSDO                                  Hapeville, GA
   Indianapolis FSDO                             Plainfield, IN
   Long Beach FSDO                               Long Beach, CA
   Lubbock FSDO                                  Lubbock, TX
   Orlando FSDO                                  Orlando, FL
   San Antonio FSDO                              San Antonio, TX
   South Bend FSDO                               South Bend, IN
   South Florida FSDO                            Miramar, FL
   Teterboro FSDO                                Saddle Brook, NJ
   Van Nuys FSDO                                 Van Nuys, CA

International Field Offices or Unit (IFO/IFU):
   Beijing IFU                                   Beijing, China
   Los Angeles IFO                               Lawndale, CA
   Miami IFO                                     Miramar, FL
   Singapore IFO                                 Singapore

Certificate Management Office (CMO):
   American Airlines CMO                         Fort Worth, TX




Exhibit B. Acti vities Visited or Contacted
                                                                          21


14 CFR PART 145 REPAIR STATIONS:

Domestic
   Hawker Pacific Aerospace                      Sun Valley, CA
   HRD Aero Systems, Inc.                        Valencia, CA
   MAG Aerospace Industries, Inc.                Carson, CA

   AAR Aircraft Services, Inc.                   Miami, FL
   Accel Aviation Accessories, LLC               Fort Myers, FL
   HEICO Components Repair Group                 Miami, FL
   RA Aviation Support Group Inc.                Miami, FL

   Bombardier Services Corporation               Macon, GA
   FellFab Corporation                           Atlanta, GA

   BAE Systems Controls, Inc.                    Fort Wayne, IN
   Rolls-Royce Engine Services, Inc.             Indianapolis, IN

   CAG Industries, LLC                           Fairfield, NJ
   GE Aviation Systems, LLC                      Whippany, NJ
   Zodiac Services Americas, LLC                 Wall Township, NJ

   Chromalloy Component Services, Inc.           San Antonio, TX
   Leading Edge Aviation Services, Inc.          Amarillo, TX
   Texas Aero Engine Services, LLC               Fort Worth, TX

Foreign
   GE Celma                                      Petropolis, Brazil
   Rolls-Royce Brasil - Gas Turbine Services     Sao Paulo, Brazil
   TAP Maintenance & Engineering Brasil          Rio de Janeiro, Brazil

   Aircraft Maintenance and Engineering Corp.    Beijing, China
   Boeing Shanghai Aviation Services Co., Ltd.   Shanghai, China
   MTU Maintenance Zhuhai Company, Ltd.          Zhuhai, China

   Air New Zealand Engineering Services          Auckland, New Zealand
   Air New Zealand Engineering Services          Christchurch, New Zealand
   Pratt and Whitney Air New Zealand             Christchurch, New Zealand

   SEMAN-Peru                                    Lima, Peru




Exhibit B. Acti vities Visited or Contacted
                                                                      22


14 CFR PART 145 REPAIR STATIONS (cont.):

   Eagle Services Asia PTE, Ltd.                     Singapore
   GE Aviation Service Operation, LLP                Singapore
   ST Aerospace Services Co. PTE, Ltd.               Singapore

OTHER INDUSTRY REPRESENTATIVES OR ORGANIZATIONS:
   Aeronautical Repair Station Association (ARSA)    Alexandria, VA
   Professional Aviation Safety Specialists (PASS)   Washington, DC




Exhibit B. Acti vities Visited or Contacted
                                                           23


EXHIBIT C. FAA-CERTIFICATED REPAIR STATION LOCATIONS




Exhibit C. F AA- Cert ificated Repair Stat ion Locations
                                                     24


EXHIBIT D. REPAIR STATION ASSESSMENT TOOL (RSAT)




Exhibit D. Repair St ation Assessment Tool (RS AT)
                                                              25


EXHIBIT E. MAJOR CONTRIBUTORS TO THIS REPORT
Name                                    Title

Tina Nysted                             Program Director

Kevin George                            Project Manager

Anne Longtin                            Senior Analyst

Taniesha Willis                         Senior Analyst

Nathaniel Caldwell                      Auditor

Manuel Ramos                            Auditor

Audre Azuolas                           Writer/Editor

Petra Swartzlander                      Senior Statistician

Megha Joshipura                         Statistician




Exhibit E. Major Contributors to This Report
APPENDIX. AGENCY COMMENTS                                                                       26




                    Federal Aviation
                    Administration

Memorandum
Date:      April 4, 2013
To:        Jeffrey B. Guzzetti, Director, Assistant Inspector General for Aviation and Special
           Program Audits
From:      H. Clayton Foushee, Director, Office of Audit and Evaluation, AAE-1
Subject:   Federal Aviation Administration (FAA) Response to Department of Transportation
           Office of Inspector General (DOT OIG) Draft Report: Repair Station Oversight


The FAA has a rigorous, risk-based system of oversight for repair stations and is taking action to
rectify performance gaps that contributed to the issues identified in the OIG draft report.
Specifically, the agency is increasing its management focus upon ensuring that Aviation Safety
Inspectors (ASIs) make full and correct use of current guidance and oversight tools. In the near
term, the agency will improve inspector training and policy guidance in order to provide more
comprehensive and standardized procedures for conducting inspections and reporting inspection
findings. Over the longer term, FAA is also working to improve the capabilities and
performance of the risk-based analytical tools available to inspectors. These enhancements will
result in more consistent inspection practices that will improve the detection of systemic
deficiencies and increase the effectiveness of repair station safety oversight.

RECOMMENDATIONS AND RESPONSES

Recommendation 1: Modify its oversight system so that all inspection elements are
considered in inspector risk assessments of repair stations.

FAA Response:
Concur. Since 2007, the FAA has used the Repair Station Assessment Tool (RSAT) as part of
its enhanced repair station oversight program. RSAT is comprised of policies and procedures
and a supporting automation tool, which enable the FAA to employ system safety methodology
and to review past findings to plan and aid risk-based oversight. The current RSAT allows the
inspector to review annually the elements contained in a “main base” inspection. The elements
are as follows:
           1. Parts and Materials;
           2. Certificate Requirements;
           3. Records Systems;
           4. Housing and Facilities;

Appendix. Agency Comments
                                                                                                27


           5. Tools and Equipment;
           6. Personnel Records;
           7. Manuals;
           8. Quality Control;
           9. Maintenance Process;
           10. Technical Data;
           11. Training;
           12. Work Away from Station;
           13. Contract Maintenance Noncertificated;
           14. Contract Maintenance Certificated;
           15. Air Carrier and Air Operator Requirements; and
           16. European Aviation Safety Agency (EASA) Oversight Audit.

The first seven elements of the inspection above are basic to the repair station and include
standard quality control elements. For these reasons, the FAA has made the decision to
automatically generate required inspection of the first seven elements if they have not received
an inspection in the previous 2 years. Elements 8 through 11 are required inspection items and
are not based upon the repair stations’ capabilities. Elements 12 through 16 are based upon the
repair stations capabilities.

As evidenced by the OIG’s findings, some inspectors would benefit from additional training on
the RSAT. Accordingly, the FAA will conduct recurrent training/workshops to improve the use
of the RSAT as it was intended. This will be completed by December 31, 2013.

Based upon our past field experience with RSAT and the recommendations from OIG, the FAA
will also modify its oversight system. The FAA is developing the next generation of surveillance
and analytical tools called the Safety Assurance System (SAS). SAS applies to both air carriers
and repair station certificate holders. SAS information sharing features, which include
automated data collection tools, will give ASIs a more comprehensive picture of the certificate
holder’s risk environment. As a result, SAS will improve the ASI’s ability to prioritize and
develop a risk-based oversight work program. SAS will further enhance the FAA’s ability to
assess the health of repair station systems and ensure that risk is identified, documented, tracked,
and effectively managed.

In July 2012, the FAA provided a briefing on the development and implementation of SAS to the
OIG and demonstrated how the new system will address the recommendations in the draft audit
report SAS deployment is scheduled to begin in Fiscal Year (FY) 2015.




Appendix. Agency Comments
                                                                                                28


Recommendation 2: Implement a risk-based system suitable for oversight of foreign repair
stations.

FAA Response: Concur. RSAT is the FAA’s current repair station risk-based oversight
program for all repair stations, both within the U.S. and outside the U.S. In the near term, FAA
is developing a training/workshop for all airworthiness inspectors and managers and to more
completely convey the expectation that all International Field Offices are required to utilize the
RSAT protocols. This will be accomplished by December 31, 2013. Once the briefings are
complete, the FAA will amend current inspector guidance to reinforce the use of the RSAT tool
and will publish updated guidance by March 28, 2014.

Over the longer term, FAA is developing SAS tools that will provide enhanced risk assessment
capabilities for both U.S. and foreign repair stations when they come online.

Recommendation 3: Modify the risk assessment tool so that inspectors can document changes
to their surveillance plans as soon as they are made.

FAA Response: Concur. Using RSAT now, an inspector is able to modify the surveillance
plan. The results of the RSAT assessment may be used to add further required inspections and to
include follow-up inspections in the annual program. The inspector is also able to cancel or
terminate these inspections later in the year, if warranted.

The RSAT tool organizes and synthesizes information and provides it to an inspector in a
manner that enables the inspector to plan surveillance. It is also a tool for the inspector to
evaluate risk and incorporate the findings into an annual plan. Other factors, such as the
National Work Program Guidelines, influence the surveillance plan. The program guidelines
enumerate the minimum inspection requirements for each operator. A third factor may be
changes in the repair station business, management or personnel. The minimum requirements,
plus the risk indicators, allow an inspector to develop a surveillance plan. Currently, it can be
modified by adding specific inspections to address risk indications or eliminate them if
conditions no longer apply. Inspections can also be terminated if the repair station goes out of
business or surrenders its certificate. The modifications are done at the local office level. The
regional office monitors the minimum requirements for repair stations to ensure that each
certificate holder receives one inspection per year in accordance with the NPG requirements.

During the recurrent training/workshop that is being developed for all airworthiness inspectors
and their managers, the FAA will re-familiarize the inspectors and their managers with the
RSAT’s capabilities so that they may document changes to their surveillance plans as soon as
they are made. The FAA plans on accomplishing the training/workshop by December 31,
2013, and once the briefings are complete the FAA will amend the guidance to reinforce the
use of the RSAT by March 28, 2014.

Additionally, the FAA is developing SAS to allow inspectors the ability to change, and
document changes to their surveillance plans at any time. SAS policy allows inspectors to
change planned due dates of all assessments and provides guidance on how and when to do so.
All plan changes and justifications for those changes are documented in the SAS program.



Appendix. Agency Comments
                                                                                                  29


Recommendation 4: Develop a control that will ensure inspectors prioritize inspections to
those repair stations determined to have increased risk.

FAA Response: Concur. The FAA expects that the inspector workforce and local office
managers will prioritize inspections of repair stations that show increased risk. Inspectors,
supervisors and local office managers are expected to identify and respond to risk indicators and
mitigate them through increased or targeted surveillance. If the risk indication is validated and
the inspections show a regulatory violation, then the inspector will pursue enforcement action.

FAA’s recurrent training/workshop will emphasize the responsibility to prioritize inspections to
those repair stations determined to have increased risk. This will be accomplished by
December 31, 2013.

In the long-term, FAA policy, supported by automation, will require automated triggers or
parameters in SAS to ensure inspectors prioritize inspections for all repair stations showing
increased risk. Management controls will exist within SAS to ensure that inspections and other
resources are assigned to the highest risk areas first. Policy requires a second level review and
final concurrence by a frontline manager of the overall inspection plan proposed by the
inspector. In addition, policy requires inspectors to complete a risk assessment of the repair
station using a list of risk indicators at least once per year. Results of that assessment must be
documented in SAS automation and used by the inspector to prioritize repair station inspections.
SAS will require adjustments to the oversight plan if the risk evaluation changes over time. If
risk increases, surveillance will increase and if risk diminishes, surveillance may be reduced.

Recommendation 5: Enhance training to inspectors so that they understand the importance of
using the available tools for assessing and trending risk.

FAA Response: Concur. During meetings with the OIG, the FAA provided records showing
that inspectors had received training in the use of the RSAT and other tools for assessing and
trending risk. However, the audit findings suggest, that inspectors either did not retain the
information, or that the training did not provide adequate instructions in the use the tools.
Therefore, the FAA is developing a recurrent training/workshop to be provided to the inspector
workforce. The FAA, by December 31, 2013, will brief the Flight Standards Regional Division
managers and maintain completion records to ensure that each inspector, assigned to 14 CFR,
part 145 oversight, has received the recurrent training/workshop on the use of the RSAT and
other available tools for assessing and trending risk.

As the FAA moves towards a Safety Management Systems (SMS) and begins its
implementation, the FAA will again provide courses pertaining specifically to an inspector’s job
responsibilities. This includes the use of current assessment tools and instructions. These
courses will be reviewed and may change with the implementation of SAS. They are:
     •   SMS Training; and
     •   SMS Theory and Application.

In addition to the courses listed above, the FAA is developing training to teach inspectors the
new concepts and tools that will be found in SAS. The following courses will include

Appendix. Agency Comments
                                                                                                     30


instruction on available tools used for identifying and assessing risk:
     •   Introduction to SAS – Provides fundamental knowledge of SAS concepts and tools;
     •   SAS for Inspectors and Field Office Management – Will include specific lessons and
         exercises in the use of SAS tools used to assess and analyze risk;
     •   SAS for Repair Stations Located Outside of the United States – Instruction on the
         unique oversight and data collection requirements for repair stations located outside the
         United States such as the use of custom data collection tools to enable inspectors to
         identify and assess risk;
     •   SAS Analysis, Assessment and Action – Will provide specific instruction in the SAS
         tools used to analyze and assess inspection results and how to use those results to
         identify and assess risk, track corrective actions, and use the data to prioritize future
         inspections; and
     •   SAS for Managers – Provides managers with an overview of all available risk
         assessment tools within SAS and management’s roles and responsibilities in SAS.

Once these courses are available, they will assist inspectors in understanding the overall
purpose of SAS and how to use the available tools most effectively. The FAA plans to have
these training courses completed prior to SAS deployment, scheduled to being in FY 2015.

Recommendation 6: Develop the Repair Station Data Package and provide training to all
inspectors on how to use it.

FAA Response: Concur. At present, FAA inspectors have the capacity to produce a data
package through the Safety Performance Analysis System (SPAS). SPAS is an automation
system that provides inspectors with information to organize and support their inspection
activities and planning. However, to accomplish this, inspectors must go to more than one
location within the SPAS to obtain requisite information. Therefore, during the recurrent
training/workshop that is being developed for all airworthiness inspectors and their managers,
the FAA, by December 31, 2013, will include a section that shows how to obtain a data package
to plan surveillance.

After this training/workshop, the FAA will revise guidance to include a clearer, step-by-step
guide so that inspectors can obtain a data package. Additionally, the FAA will amend the
training course to show how to develop a data package using the information currently
available in SPAS and will revise FAA Order 8900.1 Volume 6, Chapter 13, Repair Station
Oversight Process to define and use of data packages by March 28, 2014.

Also, when SAS is deployed in FY 2015, it will provide a repair station data package that
directly supports the SAS oversight process. In addition, standard data reports will be available
from the inspector’s homepage in SAS. Training will be provided on how to analyze and
assess available data in courses such as “SAS Analysis, Assessment and Action” and “SAS for
Inspectors and Field Office Management.”




Appendix. Agency Comments
                                                                                                     31


Recommendation 7: Develop a standardized checklist that all inspectors can use to improve
the consistency in the way they perform and report their inspection findings.

FAA Response: Concur. A standardized checklist is presently available in FAA Order 8900.1,
Volume 6, Chapter 9, Section 2: Team Focused In-depth Inspection of a Part 145 Repair
Station. The FAA will emphasize the importance of the checklist through the recurrent
training/workshop being developed for all airworthiness inspectors and their managers by
including the standardized checklist from the guidance mentioned above and will require that
airworthiness inspectors use the checklist and ensure this occurs through oversight of the local
offices. However, based on the recommendation, the FAA will work on a refinement of this
checklist for the individual inspector and plan on completing this action by March 28, 2014.

The FAA is also actively developing a standard checklist (through data collection tools) that will
allow individual inspectors to improve consistency in future assessments of repair stations. This
standardized checklist is part of SAS deployment scheduled to begin in FY 2015.

Recommendation 8: Provide training for inspectors to improve their review and acceptance of
repair station corrective plans.

FAA Response: Concur. During the recurrent training/workshop that is being developed for
all airworthiness inspectors and their managers, the FAA will include a section on how to
improve the review and acceptance of repair station corrective plans. This briefing will be
accomplished by December 31, 2013.
Although the FAA has current training on this subject, the draft report results reveal that a
revision is necessary. This revision will be added to the current FAA Course 21058:
Certification and Surveillance of Repair Stations. To improve the inspectors’ review and
acceptance of repair station corrective plans, training in this subject area will be added to Lesson
11, Certificate Management and Surveillance. The FAA plans to complete the revision of this
course by February 28, 2014.

Additionally, with the future deployment of SAS, SAS training will instruct inspectors to use
SAS tools to verify whether corrective actions taken by a certificate holder properly address the
issues found during design or performance assessments.

Recommendation 9: Develop guidance and training to inspectors on how to conduct
comprehensive briefings to repair station officials on inspection findings.

FAA Response: Concur. During the recurrent training/workshop being developed for all
airworthiness inspectors and their managers, a section on how to conduct comprehensive
briefings to repair station officials on inspection findings will be included in the briefing. The
FAA plans on accomplishing this by December 31, 2013.

Although the FAA has courses currently that provide information on conducting comprehensive
briefings to repair station officials on inspection findings, the FAA will evaluate the courses to
determine their efficacy by December 31, 2013. Additionally, the FAA will determine whether
or not they should be made mandatory for all airworthiness inspectors. The following courses
will be evaluated for these enhancements:

Appendix. Agency Comments
                                                                                            32


   •   FAA Course 21058 - Certification and Surveillance of Part 145 Repair Stations; and
   •   FAA Course 28463 - Basic Compliance Auditing for AVS Personnel, Phase 3. This
       course encompasses training on how to conduct comprehensive in-and out-briefings.
       This course is available to inspectors involved in the auditing process; however, FAA
       will evaluate and determine if it provides sufficient knowledge on conducting
       comprehensive briefings to repair station officials.




Appendix. Agency Comments
